Audit Related Product




OIG-11-065
SAFETY AND SOUNDNESS: Material Loss Review Glossary
April 11, 2011




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220


                                                      April 11, 2011
     OFFICE OF
INSPECTOR GENE RAL



            OIG-11-065

            Glossary of Terms Used by the Office of Inspector General in Reports on
            Treasury-Regulated Financial Institution Failures

            Introduction and Purpose

            The Department of the Treasury Office of Inspector General (OIG) is required to
            conduct reviews of failed financial institutions that were regulated by the Office of
            the Comptroller of the Currency (OCC) and the Office of Thrift Supervision (OTS). 1

            For material loss reviews completed between 2008 and 2010, a glossary of key
            terms and their definitions was included in each report. Going forward, rather than
            include such a glossary of key terms and definitions in each report, we will
            underline key terms where first used in all of our reports on Treasury-regulated
            financial institution failures and direct the reader to this document for definitions.
            Where a term is unique to OCC or OTS, we have indicated that in the definition. It
            should be noted that effective July 21, 2011, pursuant to P.L. 111-203, the
            functions of OTS are being transfer to OCC and other federal banking agencies. We
            plan to assess the impact of the transfer of functions to the terms and definitions
            in this document and will revise and reissue the document as appropriate.

            We shared a draft of this document with OCC and OTS officials and their
            comments were considered in this final version.

            For any questions pertaining to this document, please contact the Treasury OIG,
            Office of Audit, at (202) 927-5400.

            Exhibit


            1
              Section 38(k) of the Federal Deposit Insurance Act requires that the Inspector General for the
            primary federal regulator of a failed institution conduct a material loss review when the estimated
            loss to the Deposit Insurance Fund is material. Effective July 21, 2010, section 38(k) defines a loss
            as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar
            years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a provision that
            the threshold can be raised temporarily to $75 million if certain conditions are met). Prior to this
            change, section 38(k) defined a loss as material if it exceeded the greater of $25 million or 2
            percent of the institution’s total assets. For losses that are under the threshold for a material loss
            review, the cognizant Inspector General is required to perform a review of the financial institution
            failure that is limited to (1) ascertaining the grounds identified by the federal banking agency for
            appointing the Federal Deposit Insurance Corporation as receiver and (2) determining whether any
            unusual circumstances exist that might warrant a more in-depth review of the loss.
                                                                              OIG-11-065

                                                                                   Exhibit
                             Glossary of Terms Used by the Office of Inspector General in
                                Reports on Treasury-Regulated Financial Intuition Failures
                                                                                   Page 1




10-K                         An annual report filed by publicly traded companies
                             with the Securities and Exchange Commission
                             presenting a financial overview of the company
                             during the year.

10-Q                         A comprehensive report of a company's
                             performance that must be submitted quarterly by
                             all public companies to the Securities and
                             Exchange Commission. In the 10-Q, firms are
                             required to disclose relevant information regarding
                             their financial position.

Acquisition, development,
and construction loan        A loan that allows the borrower to purchase real
                             property, put in the necessary infrastructure
                             (streets, lights and utilities), and then build stores
                             or other buildings. Acquisition, development and
                             construction loans are often used by developers of
                             large properties, such as strip malls or shopping
                             centers.

Adversely classified asset   Also referred to as a classified asset, an asset that
                             is rated as substandard, doubtful, or loss.
                             Substandard assets are inadequately protected by
                             the current worth and paying capacity of the
                             obligor or of the collateral pledged, if any. A
                             doubtful asset has all the weaknesses of a
                             substandard asset with the added characteristic
                             that the weaknesses make collection or liquidation
                             in full questionable and improbable. A loss asset is
                             considered uncollectible and of such little value,
                             that continuation as a recorded asset is not
                             warranted.
                                                                             OIG-11-065

                                                                                  Exhibit
                            Glossary of Terms Used by the Office of Inspector General in
                               Reports on Treasury-Regulated Financial Intuition Failures
                                                                                  Page 2




Allowance for loan and
Lease losses                An estimate of uncollectible amounts used
                            to reduce the book value of loans and leases to the
                            amount expected to be collected. It is established
                            in recognition that some loans in the institution’s
                            overall loan and lease portfolio will not be repaid.

Alt-A loan                  A mortgage made to a borrower that typically does
                            not involve income verification or documentation of
                            income, assets, or employment. Instead, the
                            approval of the loan is based primarily on an
                            individual applicant’s credit score.

Asset/liability committee   A senior management committee in a bank or thrift
                            institution responsible for overseeing the
                            institution’s actions relating to interest rate risk and
                            liquidity risks. The committee may be responsible
                            for overseeing controls to manage price and
                            compliance risks. Among other activities, the
                            committee typically reviews interest rate risk
                            exposures and approves management strategies for
                            investment securities activities, derivatives
                            transactions, deposit programs, and lending
                            initiatives. It evaluates the bank’s liquidity position
                            and assesses how anticipated changes may affect
                            that position. Asset/liability management
                            committees in more complex banks may approve
                            trading strategies and review trading positions in
                            securities, derivatives, or foreign exchange.

Board resolution (OTS)      A document designed to address one or more
                            specific concerns identified by OTS and adopted by
                            a thrift’s board of directors. A board resolution is
                            considered an informal (non-public) enforcement
                            action.
                                                                     OIG-11-065

                                                                          Exhibit
                    Glossary of Terms Used by the Office of Inspector General in
                       Reports on Treasury-Regulated Financial Intuition Failures
                                                                          Page 3




Brokered deposit    Any deposit that is obtained, directly or indirectly,
                    from a deposit broker. The financial institution
                    solicits deposits by offering rates of interest that
                    are significantly higher than the rates offered by
                    other insured depository institutions in its normal
                    market area. Use of brokered deposits is limited to
                    well-capitalized insured depository institutions and,
                    with a waiver from the Federal Deposit Insurance
                    Corporation, to adequately capitalized institutions.
                    Undercapitalized institutions are not permitted to
                    accept brokered deposits. (See 12 U.S.C. §1831(f)
                    and 12 C.F.R. 337.6.)

Call report (OCC)   A quarterly report of income and financial condition
                    that banks file with their regulatory agency. The
                    contents of a call report include consolidated
                    detailed financial information on assets, liabilities,
                    capital, and loans to executive officers, as well as
                    income, expenses, and changes in capital
                    accounts. On February 3, 2011, the federal
                    banking agencies announced a change from
                    quarterly thrift financial reports to quarterly call
                    reports. Savings associations are required to file
                    quarterly call reports, beginning with the March 31,
                    2012, report date. Effective on that date, all
                    schedules of the thrift financial report will be
                    eliminated.

CAMELS              Federal banking agencies use the Uniform Financial
                    Institutions Rating System, or “CAMELS,” to
                    assign composite and component ratings to
                    financial institutions. An institution’s composite
                    CAMELS rating integrates ratings from six
                    component areas—capital adequacy, asset quality,
                    management, earnings, liquidity, and sensitivity to
                    market risk. The ratings range from 1 to 5 with 1
                                                                                OIG-11-065

                                                                                     Exhibit
                               Glossary of Terms Used by the Office of Inspector General in
                                  Reports on Treasury-Regulated Financial Intuition Failures
                                                                                     Page 4




                               being the highest rating and least supervisory
                               concern.

Capital restoration plan       A plan submitted to the appropriate federal banking
                               agency by an undercapitalized insured depository
                               institution. A capital restoration plan specifies the
                               steps the institution is to take to be adequately
                               capitalized and the levels of capital to be attained
                               during each year in which the plan is in effect. It
                               also specifies how the institution is to comply with
                               the restrictions or requirements then in effect, the
                               types and levels of activities in which the
                               institution is to engage, and any other information
                               that the federal banking agency may require.

Cease and desist order (OTS)   An order issued by OTS that requires the thrift to
                               correct a violation of a law or regulation, or an
                               unsafe or unsound practice. OTS may issue a
                               cease and desist order in response to violations of
                               federal banking, securities, or other laws by thrifts
                               or individuals or if it believes that an unsafe and
                               unsound practice or violation is about to occur. A
                               cease and desist order is a formal (public)
                               enforcement action.

Cease and desist order (OCC)   An order issued by OCC that sets out in article-by-
                               article form restrictions and remedial measures
                               necessary to correct unsafe or unsound practices
                               or violations in the bank in order to return it to a
                               safe and sound condition. There is no legal
                               distinction between a consent order and a cease
                               and desist order: a consent order is a cease and
                               desist order issued by consent. A cease and desist
                               order is a formal (public) enforcement action.
                                                                               OIG-11-065

                                                                                    Exhibit
                              Glossary of Terms Used by the Office of Inspector General in
                                 Reports on Treasury-Regulated Financial Intuition Failures
                                                                                    Page 5




Classified asset              Also referred to as an adversely classified asset, an
                              asset that is rated as substandard, doubtful, or
                              loss. Substandard assets are inadequately
                              protected by the current worth and paying capacity
                              of the obligor or of the collateral pledged, if any. A
                              doubtful asset has all the weaknesses of a
                              substandard asset with the added characteristic
                              that the weaknesses make collection or liquidation
                              in full questionable and improbable. A loss asset is
                              considered uncollectible and of such little value,
                              that continuation as a recorded asset is not
                              warranted.

Collateralized mortgage
obligation                    Bonds that are a type of mortgage-backed security
                              representing claims to specific cash flows from
                              large pools of home mortgages. The streams of
                              principal and interest payments on the mortgages
                              are distributed to the different classes of the
                              collateralized mortgage obligation interests, known
                              as tranches, according to a complicated deal
                              structure. Each tranche may have different
                              principal balances, coupon rates, prepayment risks,
                              and maturity dates (ranging from a few months to
                              20 years). Collateralized mortgage obligations are
                              often highly sensitive to changes in interest rates
                              and any resulting change in the rate at which
                              homeowners sell their properties, refinance, or
                              otherwise pre-pay their loans. Investors in these
                              securities may not only be subjected to this
                              prepayment risk, but also exposed to significant
                              market and liquidity risks.

Commercial real estate loan   A loan for real property where the primary or
                              significant source of repayment is from rental
                              income associated with the property or the
                              proceeds of the sale, refinancing, or permanent
                                                                                   OIG-11-065

                                                                                        Exhibit
                                  Glossary of Terms Used by the Office of Inspector General in
                                     Reports on Treasury-Regulated Financial Intuition Failures
                                                                                        Page 6




                                 financing of the property. Commercial real estate
                                 loans include construction and real estate
                                 development loans, land development loans, and
                                 commercial property loans (such as for office
                                 buildings and shopping centers).

Community Reinvestment Act       Enacted by Congress in 1977, the act encourages
                                 insured depository institutions to help meet the
                                 credit needs of their communities for housing and
                                 other purposes, particularly in neighborhoods with
                                 low or moderate incomes, while maintaining safe
                                 and sound operations.

Compliance examination           The part of an insured depository institution
                                 examination that includes an assessment of how
                                 well the institution manages compliance with
                                 consumer protection and public interest laws and
                                 regulations, including the Bank Secrecy Act.

Comprehensive examination        A combined examination of an insured depository
                                 institution’s safety and soundness and its
                                 compliance with applicable rules and regulations.

Concentration (of credit) (OTS) A group of similar types of assets or liabilities that,
                                when aggregated, exceed 25 percent of a thrift’s
                                core capital plus allowance for loan and lease
                                losses. Concentrations may include direct, indirect,
                                and contingent obligations or large purchases of
                                loans from a single counterparty.

Concentration (of credit) (OCC) A situation where direct, indirect, or contingent
                                obligations exceed 25 percent of a bank's capital
                                structure.

Concentration risk               Risk in a loan portfolio that arises when a
                                 disproportionate number of an insured depository
                                                                               OIG-11-065

                                                                                    Exhibit
                              Glossary of Terms Used by the Office of Inspector General in
                                 Reports on Treasury-Regulated Financial Intuition Failures
                                                                                    Page 7




                              institution’s loans are concentrated in one or a
                              small number of financial sectors, geographical
                              areas, or borrowers.

Consent order (OCC)           The title given by OCC to a cease and desist order
                              that is entered into and becomes final through the
                              board of directors’ execution, on behalf of the
                              bank, of a stipulation and consent document. Its
                              provisions are set out in article-by-article form and
                              prescribe restrictions and remedial measures
                              necessary to correct deficiencies or violations in
                              the bank in order to return it to a safe and sound
                              condition. A consent order is a formal (public)
                              enforcement action.

Construction permanent loan   Construction permanent loans finance the building
                              of a new property. This type of financing carries a
                              regular amortization schedule, and does not require
                              any refinancing after completion of the building
                              work.

Conventional mortgage         A residential mortgage not backed by federal
                              insurance or guarantee. In the secondary mortgage
                              market, Fannie Mae and Freddie Mac are the major
                              purchasers of conventional loans.

Core capital                  A component of Tier 1 capital, core capital
                              primarily consists of stockholder’s equity.

Correspondent channel         An arrangement through which a correspondent
                              lender both processes and funds loans, then sells
                              them to a wholesale lender, usually under a
                              previous commitment by the wholesaler to
                              purchase a certain amount of loans at an agreed-
                              upon interest rate.
                                                                          OIG-11-065

                                                                               Exhibit
                         Glossary of Terms Used by the Office of Inspector General in
                            Reports on Treasury-Regulated Financial Intuition Failures
                                                                               Page 8




Criticized Assets        A term that is generally recognized as including
                         both special mention assets and classified assets.
                         A special mention asset is an asset with potential
                         weaknesses that deserve management's close
                         attention. If left uncorrected, these potential
                         weaknesses may result in deterioration of the
                         repayment prospects for the asset or in the
                         institution's credit position at some future date.
                         Special mention assets are not adversely classified
                         and do not expose an institution to sufficient risk
                         to warrant adverse classification. A classified asset
                         is an asset that is rated as substandard, doubtful,
                         or loss. Substandard assets are inadequately
                         protected by the current worth and paying capacity
                         of the obligor or of the collateral pledged, if any. A
                         doubtful asset has all the weaknesses of a
                         substandard asset with the added characteristic
                         that the weaknesses make collection or liquidation
                         in full questionable and improbable. A loss asset is
                         considered uncollectible and of such little value,
                         that continuation as a recorded asset is not
                         warranted.

De novo bank (OCC)       A newly chartered bank that has been open for
                         less than 3 years.

Debt-to-income           Ratio of the borrower’s monthly obligations
                         compared with the borrower’s gross income. An
                         insured depository institution’s board of directors
                         should establish underwriting standards that
                         include prudent ratios appropriate for products in
                         the institution’s lending area that do not expose
                         the institution to inordinate levels of credit risk.

Deposit Insurance Fund   A fund that is devoted to insuring the deposits of
                         individuals by the Federal Deposit Insurance
                                                                           OIG-11-065

                                                                                Exhibit
                          Glossary of Terms Used by the Office of Inspector General in
                             Reports on Treasury-Regulated Financial Intuition Failures
                                                                                Page 9




                          Corporation. The Deposit Insurance Fund is set
                          aside to pay back the money lost due to the failure
                          of an insured depository institution. The Deposit
                          Insurance Fund is funded by insurance payments
                          from insured depository institutions.

District Supervisory
Review Committee (OCC)    A committee in each OCC district that ensures
                          OCC bank supervision and enforcement policies are
                          applied effectively and consistently. Each
                          committee advises the OCC deputy comptroller for
                          the district on bank supervision and enforcement
                          cases by providing recommendations on
                          supervisory strategies and enforcement actions.

Division of Resolutions
and Receiverships         A division within the Federal Deposit Insurance
                          Corporation charged with resolving failing and
                          failed insured depository institutions, including
                          ensuring that depositors have prompt access to
                          their insured funds.

Early payment default     In the mortgage industry, the term refers to a
                          mortgage that becomes 90 or more days
                          delinquent or goes into default during its first year.

Equity capital            Invested money that, in contrast to debt capital, is
                          not repaid to the investors in the normal course of
                          business. It represents risk capital staked by the
                          owners through purchase of an insured depository
                          institution’s common stock. Its value is computed
                          by estimating the current market value of
                          everything owned by the institution, from which
                          the total liabilities are subtracted. On the balance
                          sheet, equity capital is listed as stockholders’
                          equity or owners’ equity. Equity capital is the initial
                                                                          OIG-11-065

                                                                               Exhibit
                         Glossary of Terms Used by the Office of Inspector General in
                            Reports on Treasury-Regulated Financial Intuition Failures
                                                                             Page 10




                         funding (called contributed capital or paid-in
                         capital) needed to charter a bank or thrift; a
                         cushion against operating losses, such as bad debt;
                         and a source of protection for depositors’ money.

Federal Home Loan Bank
 System                  A system of 12 regional cooperative banks created
                         by Congress from which member institutions
                         borrow funds to finance housing, economic
                         development, infrastructure, and jobs. The system
                         provides liquidity to member institutions that hold
                         mortgages in their portfolios and facilitates the
                         financing of mortgages by making low-cost loans,
                         called advances, to members. Advances with a
                         wide variety of terms to maturity, from overnight
                         to long-term, are available to members and are
                         collateralized. Advances are designed to prevent
                         any possible loss to Federal Home Loan Banks,
                         which also have a super lien (a lien senior or
                         superior to all current and future liens on a property
                         or asset) when insured depository institutions fail.
                         To protect their position, Federal Home Loan Banks
                         have a claim on any of the additional eligible
                         collateral in a failed institution. In addition, the
                         Federal Deposit Insurance Corporation has a
                         regulation that reaffirms the priority of Federal
                         Home Loan Banks, which can demand prepayment
                         of advances when institutions fail.

FICO score               A credit score provided to lenders by credit
                         reporting agencies to reflect information that each
                         credit bureau keeps on file about the borrower. The
                         scores are produced from software developed by
                         the Fair Isaac Corporation. The scores take into
                         consideration borrower information such as
                         (1) timeliness of payments; (2) the length of time
                                                                          OIG-11-065

                                                                               Exhibit
                         Glossary of Terms Used by the Office of Inspector General in
                            Reports on Treasury-Regulated Financial Intuition Failures
                                                                             Page 11




                         credit has been established; (3) the amount of
                         credit used versus the amount of credit available;
                         (4) the length of time at present residence; and
                         (5) negative credit information such as
                         bankruptcies, charge-offs, and collections. The
                         higher the credit score is, the lower the risk to the
                         lender.

Field visit (OTS)        A visit conducted to review specific areas of
                         concern that OTS has about an insured depository
                         institution.

Formal agreement (OCC)   A bilateral document signed by the board of
                         directors on behalf of the bank and an authorized
                         OCC official. It is a formal (public) enforcement
                         action and legally recognized document issued
                         pursuant to the OCC’s enforcement authority under
                         12 USC 1818(b). Violations of a formal agreement
                         can provide the legal basis for assessing civil
                         money penalties against directors, officers, and
                         other institution-affiliated parties. However, unlike
                         a consent order, formal agreements are not
                         enforceable through the federal court system.

Full-scope examination   Examination activities performed during the
                         supervisory cycle that (1) are sufficient in scope to
                         assign or confirm an insured depository
                         institution’s CAMELS composite and component
                         ratings, (2) satisfy core assessment requirements,
                         (3) result in conclusions about an institution’s risk
                         profile, (4) include onsite supervisory activities, and
                         (5) generally conclude with the issuance of a report
                         of examination.
                                                                              OIG-11-065

                                                                                   Exhibit
                             Glossary of Terms Used by the Office of Inspector General in
                                Reports on Treasury-Regulated Financial Intuition Failures
                                                                                 Page 12




Generally accepted
accounting principles        A widely accepted set of rules, standards, and
                             procedures established by the Financial Accounting
                             Standards Board for reporting financial information.

Government-sponsored
enterprises                  Financial services corporations that are federally
                             sponsored to enhance the flow of credit to the
                             agriculture and home finance sectors of the
                             economy. The Federal Home Loan Mortgage
                             Corporation (Freddie Mac), Federal National
                             Mortgage Association (Fannie Mae), Government
                             National Mortgage Association, Federal Farm Credit
                             Banks, Agriculture Credit Bank, Federal Agriculture
                             Mortgage Corporation, and the 12 Federal Home
                             Loan Banks are collectively referred to as
                             government-sponsored enterprises.

Home equity line of credit   A home equity line of credit is a form of revolving
                             credit in which one’s home serves as collateral.

Individual minimum
 capital ratio (OCC)         Established under OCC authority, a minimum level
                             of capital for a banking institution that OCC
                             considers necessary or appropriate in light of the
                             particular circumstances of the institution. When a
                             bank’s capital is impaired, OCC may require the
                             bank to establish this ratio requiring the bank to
                             achieve and maintain capital levels higher than
                             regulatory minimums. Appropriate minimum capital
                             ratios for an individual bank cannot be determined
                             solely through the application of a rigid
                             mathematical formula or wholly objective criteria.
                                                                            OIG-11-065

                                                                                 Exhibit
                           Glossary of Terms Used by the Office of Inspector General in
                              Reports on Treasury-Regulated Financial Intuition Failures
                                                                               Page 13




                           The decision is based in part on subjective
                           judgment grounded in agency expertise.

Interest carry             The portion of a construction line of credit that is
                           set aside to advance interest expense until the
                           construction project is completed. Interest carry is
                           considered part of the cost of the construction
                           project until it is completed.

Interest rate risk         The possibility that the value of an asset will
                           change adversely as interest rates change. Interest
                           rate risk results from the differences in the way
                           interest rate changes affect the values of assets,
                           liabilities, and off-balance sheet instruments.

Interest reserve           An account established by the lender to
                           periodically advance funding to pay interest
                           charges on the outstanding balance of a loan.

Internet Certificates of
 Deposits or Internet CD   Certain deposits are attracted over the Internet,
                           through CD listing services, or through special
                           advertising programs offering premium rates to
                           customers with little or no other banking
                           relationship. Although these deposits may not fall
                           within the technical definition of brokered deposits,
                           they are similar to brokered deposits. That is, they
                           are high-yielding products attractive to rate
                           sensitive customers who do not have any other
                           significant relationship with the bank.

Line sheet                 A working paper document used by examiners to
                           review a bank loan. The line sheet initially contains
                           basic information about a loan, including the
                           original amount, the current balance, and the
                           monthly payment. Examiners then use the line
                                                                          OIG-11-065

                                                                               Exhibit
                         Glossary of Terms Used by the Office of Inspector General in
                            Reports on Treasury-Regulated Financial Intuition Failures
                                                                             Page 14




                         sheet as they review the loan file, documenting
                         their analysis, the disposition of the loan, and the
                         reasons for that disposition.

Loan exception           Conditions applicable to a loan that are contrary to
                         an insured depository institution’s written loan
                         policy, procedures or underwriting guidelines or
                         where documentation needed to legally enforce the
                         loan agreement is missing.

Loan participation       The sharing of a loan by a group of insured
                         depository institutions that join together to make a
                         loan too large for any one of the institutions to
                         handle. Also known as participation financing, loan
                         participations are arranged through correspondent
                         banking networks in which smaller institutions buy
                         a portion of the overall financing packages. Loan
                         participation is a convenient way for smaller
                         institutions to acquire an interest in loans that
                         would otherwise exceed their legal lending limits.

Loan presentation
 memorandum              A document that a loan officer prepares for the
                         loan committee of a financial institution
                         when a loan is initially approved, extended, or
                         renewed. A loan presentation memorandum
                         typically includes the purpose of the credit, the
                         sources of repayment, the terms of the note, a
                         description of the project, the strength and
                         weaknesses of the credit, and other analyses of
                         the project.

Loan production office   An office of an insured depository institution that
                         takes loan applications and arranges financing for
                         corporations and small businesses but does not
                         accept deposits. Loan applications taken by loan
                                                                         OIG-11-065

                                                                              Exhibit
                        Glossary of Terms Used by the Office of Inspector General in
                           Reports on Treasury-Regulated Financial Intuition Failures
                                                                            Page 15




                        production offices are subject to approval by the
                        lending institution.

Loans to one borrower
 regulation             A regulation that imposes lending limitations on an
                        insured depository institution to avoid the risk of
                        concentrating too great a portion of its assets in
                        any single borrower or in borrowers related in a
                        common enterprise. It limits the aggregate dollar
                        amount of an institution’s loans to each borrower
                        but does not limit the number of loans within that
                        aggregate dollar amount. (See 12 C.F.R. 560.93.)

Loan-to-value ratio     A ratio for a single loan and property calculated by
                        dividing the total loan amount at origination by the
                        market value of the property securing the credit
                        plus any readily marketable collateral or other
                        acceptable collateral. In accordance with
                        Interagency Guidelines for Real Estate Lending
                        Policies established by the federal banking
                        supervisory agencies, institutions’ internal loan-to-
                        value limits should not exceed the legal lending
                        limit: (1) 65 percent for raw land; (2) 75 percent
                        for land development; (3) 80 percent for
                        commercial, multifamily, and other nonresidential
                        loans; and (4) 85 percent for one-family to four-
                        family residential loans. The guidelines do not
                        specify a limit for owner-occupied one-family to
                        four-family properties and home equity loans.
                        However, when the loan-to-value ratio on such a
                        loan equals or exceeds 90 percent at the time of
                        origination, the guidelines state that the institution
                        should require mortgage insurance or readily
                        marketable collateral.
                                                                            OIG-11-065

                                                                                 Exhibit
                           Glossary of Terms Used by the Office of Inspector General in
                              Reports on Treasury-Regulated Financial Intuition Failures
                                                                               Page 16




Matter requiring
attention (OCC)            A bank practice noted during an examination that
                           deviates from sound governance, internal control,
                           and risk management principles, which may
                           adversely affect the bank’s earnings or capital, risk
                           profile, or reputation if not addressed. It may also
                           result in substantive noncompliance with laws and
                           regulations, internal policies or processes, OCC
                           supervisory guidance, or conditions imposed in
                           writing in connection with the approval of any
                           application or other request by a bank. In some
                           circumstances, a matter requiring attention could
                           also be an unsafe or unsound practice.

Mortgage-backed security   A debt obligation that represents claims to the
                           cash flows from pools of mortgage loans, most
                           commonly on residential property. There are two
                           primary forms of mortgage-backed securities.
                           Agency mortgage-backed securities are guaranteed
                           by a government agency or government-sponsored
                           enterprise such as Fannie Mae or Freddie Mac,
                           while non-agency mortgage-backed securities are
                           issued by banks and financial companies not
                           associated with a government agency.

Mortgage banking           A term that refers to the origination, sale and
                           servicing of mortgages. A mortgage banker takes
                           an application from the borrower and issues a loan
                           to the borrower. The mortgage banker then sells
                           the loan to an investor and may retain or sell the
                           servicing of the loan that includes collecting
                           monthly payments, forwarding the proceeds to the
                           investors who purchased the loan, and acting as
                           the investor’s representative for other issues and
                           problems with the loan.
                                                                                 OIG-11-065

                                                                                      Exhibit
                                Glossary of Terms Used by the Office of Inspector General in
                                   Reports on Treasury-Regulated Financial Intuition Failures
                                                                                    Page 17




Mortgage broker                 An intermediary that brings mortgage borrowers
                                and mortgage lenders together but does not use its
                                own funds to originate mortgages.

Mortgage servicing asset        An asset net of any valuation allowances that
                                result from contracts to service loans secured by
                                real estate (that have been securitized or are
                                owned by others).

Mortgage servicing rights       A contractual agreement where the rights to
                                service an existing mortgage are sold by the
                                original lender to another party who specializes in
                                servicing mortgages. Common services rights
                                include the right to collect mortgage payments
                                monthly, set aside taxes and insurance premiums
                                in escrow, and forward interest and principal to the
                                mortgage lender.

Multi-variable stress testing   Testing designed to determine whether an insured
                                depository institution has enough capital to
                                weather the impact of adverse developments.

Negative amortization           Negative amortization occurs when the monthly
                                payments on a loan do not cover all of the interest
                                owed. The interest not paid is added to the
                                principal loan balance and is referred to as
                                capitalized interest. With negative amortization,
                                borrowers may owe more than they did at the
                                beginning of the loan even after they have made
                                many payments. Additionally, the borrower’s
                                equity in the property will decrease over time
                                unless the property value increases at a higher rate
                                than negative amortization.

No-doc loan                     Short for "no-documentation loan,” this term
                                typically refers to a residential mortgage loan for
                                                                      OIG-11-065

                                                                           Exhibit
                     Glossary of Terms Used by the Office of Inspector General in
                        Reports on Treasury-Regulated Financial Intuition Failures
                                                                         Page 18




                     which the applicant provides a minimum amount of
                     information – name, address, Social Security
                     number, and contact information for an employer,
                     if there is one. The underwriter decides on the loan
                     based on the applicant's credit history, the
                     appraised value of the house, and size of down
                     payment.

Nonaccrual loan      A loan in which interest accruals have been
                     suspended because full collection of principal is in
                     doubt or interest payments have not been made for
                     a sustained period of time.

Nonconforming loan   Unlike a conforming loan, a nonconforming loan
                     does not have terms and conditions that follow the
                     guidelines set forth by Fannie Mae and Freddie
                     Mac. These two government-sponsored enterprises
                     purchase mortgage loans (conforming loans) within
                     the guidelines from mortgage lending institutions,
                     package the mortgages into securities, and sell the
                     securities to investors. Fannie Mae and Freddie
                     Mac guidelines establish the maximum loan
                     amount, borrower credit and income requirements,
                     down payment, and suitable properties.

Nonperforming loan   A loan that is not earning income and for which
                     either (1) payment of principal and interest is no
                     longer anticipated, (2) principal or interest is 90
                     days or more delinquent, or (3) the maturity date
                     has passed and payment in full has not been made.

Nonrecourse loan     A loan that is secured by collateral (e.g., a home or
                     building), but for which the borrower is not held
                     personally liable. If the lender seizes the property
                     and the sale does not cover the loan, the borrower
                     is not responsible for the shortfall.
                                                                           OIG-11-065

                                                                                Exhibit
                          Glossary of Terms Used by the Office of Inspector General in
                             Reports on Treasury-Regulated Financial Intuition Failures
                                                                              Page 19




Nontraditional mortgage   A broad term describing mortgages that do not
                          take the traditional form. Traditional mortgage
                          loans, both fixed and adjustable rate, typically
                          require that the borrower’s monthly payment cover
                          both interest and a reduction in principal, allowing
                          for a reasonably predictable amortization over the
                          life of the mortgage. Nontraditional mortgages
                          include, but are not limited to, interest-only
                          mortgages, payment option adjustable rate
                          mortgages, and subprime mortgages.

Notice of charges (OTS)   A notice issued by OTS initiating a proceeding to
                          obtain a permanent cease and desist order when
                          OTS has determined that there is a violation, an
                          unsafe or unsound practice, or a threatened
                          violation or practice that is likely to result in
                          significant dissipation of assets, weakening of the
                          thrift’s condition, or prejudice to the interests of
                          the depositors before completion of the cease and
                          desist order.

Option adjustable rate
mortgage                  A form of adjustable rate mortgage (ARM) that
                          allows the borrower to select from various loan
                          payment options each month. These mortgages are
                          typically structured with a low introductory interest
                          rate and as many as four major types of payment
                          options: a fully amortizing 30-year payment, a fully
                          amortizing 15-year payment, an interest-only
                          payment, and a minimum payment option that
                          adjusts after the first 12 months. Option ARM(s)
                          are also called flexible payment ARMs.

Order of Investigation    An administrative action initiating an investigation
                          of a bank or thrift for possible insider abuse,
                                                                           OIG-11-065

                                                                                Exhibit
                          Glossary of Terms Used by the Office of Inspector General in
                             Reports on Treasury-Regulated Financial Intuition Failures
                                                                              Page 20




                          mortgage fraud, manipulation of records, violation
                          of laws, and unsafe and unsound banking
                          practices. The action grants OCC and OTS
                          personnel authority to issue subpoenas and take
                          sworn statements.

Other real estate owned   Real properties that an insured depository
                          institution has acquired that do not constitute its
                          facilities. Such properties include real estate
                          acquired in full or partial satisfaction of a debt
                          previously contracted and are subject to specific
                          holding periods, disposition requirements, and
                          appraisal requirements.

Other-than-temporary
impairment charge         A loss that must be recognized when it is
                          determined that an impairment is other than
                          temporary. The amount recognized equals the
                          difference between the cost of an investment and
                          its fair value.

Part 30 safety and
 soundness plan (OCC)     Refers to 12 CFR part 30, an informal (nonpublic)
                          enforcement action in which OCC informs a bank
                          that it failed to meet established safety and
                          soundness standards and requires it to submit a
                          compliance plan with planned corrective actions
                          and completion dates.

Past-due loan             A loan where payments are 30 to 90 days
                          delinquent.

Payment shock             A very large increase in the payment on an
                          adjustable rate mortgage, resulting in potential
                          inability of the borrower to afford the payment.
                                                                                     OIG-11-065

                                                                                          Exhibit
                                    Glossary of Terms Used by the Office of Inspector General in
                                       Reports on Treasury-Regulated Financial Intuition Failures
                                                                                        Page 21




Prompt corrective action            A framework of supervisory actions for insured
                                    depository institutions that are not adequately
                                    capitalized. It was intended to ensure that action is
                                    taken when an institution becomes financially
                                    troubled in order to prevent a failure or minimize
                                    resulting losses. These actions become increasingly
                                    severe as an institution falls into lower capital
                                    categories. The capital categories are well
                                    capitalized, adequately capitalized,
                                    undercapitalized, significantly undercapitalized, and
                                    critically undercapitalized. (See 12 U.S.C. §
                                    1831o.) The prompt corrective action minimum
                                    requirements are as follows:

                                     Total             Tier 1/
                                     Risk-             Risk-               Tier 1/
                Capital Category     Based             Based               Leverage
                                     10% or        and 6% or           and 5% or greater
                Well-capitalizeda
                                     greater           greater
                Adequately           8% or         and 4% or           and 4% or greater
                capitalized          greater           greater             (3% for 1-rated)
                                     Less          or  Less            or  Less than 4%
                Undercapitalized     than 8%           than 4%             (except for 1-
                                                                           rated)
                Significantly        Less         or    Less           or  Less than 3%
                undercapitalized     than 6%            than 3%
                                     Has a ratio of tangible equity to total assets that is
                Critically
                                     equal to or less than 2 percent. Tangible equity is
                undercapitalized
                                     defined in 12 C.F.R. § 565.2(f).

            a
             To be well-capitalized, an institution also cannot be subject to a
            higher capital requirement imposed by the Office of Thrift Supervision
            and Office of the Comptroller of the Currency.
                                                                      OIG-11-065

                                                                           Exhibit
                     Glossary of Terms Used by the Office of Inspector General in
                        Reports on Treasury-Regulated Financial Intuition Failures
                                                                         Page 22




Recourse             With respect to financial assets, the legal ability of
                     the purchaser of an asset to make a claim against
                     the seller of the asset if the debtor defaults. With
                     respect to real estate, it is the ability of a lender to
                     claim money from a borrower in default in addition
                     to the property pledged as collateral. With respect
                     to full recourse, the term refers to the clause in an
                     asset sales agreement whereby a bank selling a
                     loans or loan participation to an investor agrees to
                     fully reimburse the investor for losses resulting
                     from the purchased loan.

Regulation W         A Federal Reserve System regulation that
                     establishes certain restrictions on and requirements
                     for transactions between federally insured
                     depository institutions and their affiliates.
                     Regulation W requires that transactions between
                     member banks meet certain stipulations, such
                     as: (1) the credit extended to an affiliate bank must
                     be secured; (2) transactions with any one affiliate
                     total no more than 10 percent of an institution's
                     capital; and (3) transactions to all affiliates total no
                     more than 20 percent of an institution's capital.

Risk-based capital   A measure of an insured depository institution’s
                     financial strength, taking into account capital
                     reserves for loans, investments, and certain other
                     items that are off the balance sheet. In general,
                     assets with higher credit risk require more capital
                     in reserve than low-risk assets. The aim of risk-
                     based capital is to (1) encourage institutions to
                     keep a sufficient cushion of equity capital,
                     including common stock, to support balance sheet
                     assets; (2) include off-balance sheet items in the
                     computation of capital adequacy; (3) eliminate
                     disincentives to holding low-risk, liquid assets; and
                                                                       OIG-11-065

                                                                            Exhibit
                      Glossary of Terms Used by the Office of Inspector General in
                         Reports on Treasury-Regulated Financial Intuition Failures
                                                                          Page 23




                      (4) set uniform international guidelines for bank
                      capital adequacy. Risk-based capital can be
                      measured as the sum of Tier 1 capital plus Tier 2
                      capital.

Risk-weighted asset   An asset calculation used in determining the capital
                      requirement for an insured depository institution.
                      Risk-weighted assets are computed by adjusting
                      each asset class for risk in order to determine an
                      insured depository institution’s real world exposure
                      to potential losses. Regulators then use the risk-
                      weighted total to calculate how much loss-
                      absorbing capital an institution needs to sustain it
                      through difficult markets.

Special mention       An asset with potential weaknesses that deserve
                      management's close attention. If left uncorrected,
                      these potential weaknesses may result in
                      deterioration of the repayment prospects for the
                      asset or in the institution's credit position at some
                      future date. Special mention assets are not
                      adversely classified and do not expose an
                      institution to sufficient risk to warrant adverse
                      classification.

Special Supervision
 Division (OCC)       A headquarters division of OCC that supervises
                      critical problem national banks through
                      rehabilitation or other resolution processes such as
                      orderly failure management or the sale, merger, or
                      liquidation of such institutions.

Stated income loan    A non-traditional loan for which the lender does not
                      verify the income stated on the loan application.
                      Typically, however, the lender does verify
                      employment and a 2-year consistent employment
                                                                               OIG-11-065

                                                                                    Exhibit
                              Glossary of Terms Used by the Office of Inspector General in
                                 Reports on Treasury-Regulated Financial Intuition Failures
                                                                                  Page 24




                              history (same employer and/or same business)
                              must exist.

Structured investment
 securities                   A term used to refer to many of the products that
                              are part of the securitization market. In an asset-
                              backed security, cash flows from the underlying
                              assets (collateral) can be allocated to investors in
                              different ways. For example, they can be passed
                              through directly to investors or divided up
                              according to specific rules and investor demand,
                              thereby creating “structured” securities that allow
                              investors to invest in products that meet their
                              specific risk appetites and collateral and earnings
                              requirements.

Subprime loan (OTS)           A loan to a borrower with (1) a credit bureau score
                              of 660 or below; (2) two or more 30-day
                              delinquencies in the last 12 months, or one or
                              more 60-day delinquencies in the last 24 months;
                              (3) bankruptcy in the last 5 years, and/or (4) a
                              judgment, foreclosure, repossession, or charge-off
                              in the last 24 months.

Substandard asset             An asset that is inadequately protected by the
                              current sound worth and paying capacity of the
                              obligor or by the collateral pledged, if any. Assets
                              classified as substandard must have a well-defined
                              weakness, or weaknesses that jeopardize the
                              liquidation of the debt. A substandard asset
                              presents the distinct possibility that the institution
                              holding it will sustain some loss if the asset’s
                              deficiencies are not corrected.

Supervisory directive (OTS)   An informal (non-public) enforcement action by
                              OTS that directs a thrift to cease an activity or
                                                                                 OIG-11-065

                                                                                      Exhibit
                                Glossary of Terms Used by the Office of Inspector General in
                                   Reports on Treasury-Regulated Financial Intuition Failures
                                                                                    Page 25




                                take an affirmative action to remedy or prevent an
                                unsafe or unsound practice.

Tangible equity                 The tangible equity of an insured depository
                                institution is the institution’s total assets minus
                                intangible assets minus total liabilities. Examples of
                                an intangible asset include goodwill, bank card
                                service marks, and patents.

Targeted examination (OCC)      A bank examination that does not fulfill all of the
                                requirements of a statutory full-scope examination.
                                Targeted examinations may focus on one particular
                                product, function, or risk, or they may cover
                                specialty areas.

Thrift financial report (OTS)   A financial report that thrifts are required to file
                                quarterly with OTS. The report includes detailed
                                information about the institution's operations and
                                financial condition and must be prepared in
                                accordance with generally accepted accounting
                                principles. The thrift financial report is similar to
                                the call report required of commercial banks. On
                                February 3, 2011, the federal banking agencies
                                announced a change from quarterly thrift financial
                                reports to quarterly call reports. Savings
                                associations are required to file quarterly call
                                reports, beginning with the March 31, 2012, report
                                date. Effective on that date, all schedules of the
                                thrift financial report would be eliminated.

Tier 1 capital                  The portion of an insured depository institution’s
                                capital that is common shareholder’s equity
                                (common stock, surplus, and retained earnings),
                                noncumulative perpetual preferred stock, and
                                minority interests in the equity accounts of
                                consolidated subsidiaries.
                                                                       OIG-11-065

                                                                            Exhibit
                      Glossary of Terms Used by the Office of Inspector General in
                         Reports on Treasury-Regulated Financial Intuition Failures
                                                                          Page 26




Tier 2 capital        The portion of an insured depository institution’s
                      capital that is subordinated debt, intermediate-term
                      preferred stock, cumulative and long-term preferred
                      stock, and a portion of the allowance for loan and
                      lease losses. The portion of the allowance for loan
                      and lease losses includes amounts reflecting lower
                      valuations of asset or latent but unidentified losses
                      present on the balance sheet. The amount of such
                      provisions or reserves will be limited to a maximum
                      of 1.25 percent.

Transaction Account
 Guarantee Program    A component of the Federal Deposit Insurance
                      Corporation’s Temporary Liquidity Guarantee
                      Program. The Temporary Liquidity Guarantee
                      Program was established in October 2008 as part
                      of a coordinated effort by the Federal Deposit
                      Insurance Corporation, the Department of the
                      Treasury, and the Federal Reserve System to
                      address unprecedented disruptions in credit
                      markets and the resultant inability of financial
                      institutions to fund themselves and make loans to
                      creditworthy borrowers. The Temporary Liquidity
                      Guarantee Program has two distinct components:
                      (1) the Debt Guarantee Program and (2) the
                      Transaction Account Guarantee Program. The
                      Federal Deposit Insurance Corporation guarantees
                      certain senior unsecured debt issued by
                      participating entities under the Debt Guarantee
                      Program and all funds held in qualifying
                      noninterest-bearing transaction accounts at
                      participating insured depository institutions under
                      the Transaction Account Guarantee Program.
                      Originally scheduled to expire on December 31,
                      2009, FDIC extended the Transaction Account
                                                                                OIG-11-065

                                                                                     Exhibit
                               Glossary of Terms Used by the Office of Inspector General in
                                  Reports on Treasury-Regulated Financial Intuition Failures
                                                                                   Page 27




                              Guarantee Program until December 31, 2010. The
                              Dodd-Frank Wall Street Reform and Consumer
                              Protection Act of 2010, P.L. 111-203, extended
                              the Transaction Account Guarantee Program until
                              December 31, 2012, and made participation in this
                              program mandatory for all insured depository
                              institutions.

Troubled condition            A condition in which an insured depository
                              institution meets any of the following criteria:
                              (1) the regulator has notified the institution in
                              writing that it has been assigned a CAMELS
                              composite rating of 4 or 5; (2) the institution is
                              subject to a capital directive, cease and desist
                              order, a consent order, a formal written agreement,
                              or a prompt corrective action directive relating to
                              its safety and soundness or financial viability; or
                              (3) the regulator based on information available to
                              it, had informed the institution in writing of its
                              troubled condition. Such information may include
                              current financial statements and reports of
                              examination.

Troubled Condition and
 Directive Letter (OTS)       An informal enforcement action issued to an
                              institution that it has one or more of the following
                              conditions that put it into a troubled condition:
                              (1) self-dealings or other conflicts of interest,
                              (2) unsafe and unsound practices, (3) management
                              incompetence, (4) lack of director participation, or
                              (5) disregard for the regulatory process.

Troubled Asset Relief Program A program established under the Emergency
                              Economic Stabilization Act of 2008 with the goal
                              of stabilizing the U.S. financial system and
                              preventing a systemic collapse. The act gave the
                                                                              OIG-11-065

                                                                                   Exhibit
                             Glossary of Terms Used by the Office of Inspector General in
                                Reports on Treasury-Regulated Financial Intuition Failures
                                                                                 Page 28




                             Troubled Asset Relief Program the authority to
                             purchase and make fund commitments to purchase
                             troubled assets from financial institutions.

Trust preferred securities   Trust preferred securities are long-term debt
                             instruments, typically with 30-year interest-only
                             payments. Trust preferred securities are accounted
                             for as minority interest and are positioned between
                             debt and equity on the balance sheet.



Uniform Bank Performance
Report                       An analytical tool created by the Federal Financial
                             Institutions Examinations Council to help supervise
                             and examine financial institutions. A Uniform Bank
                             Performance Report is produced quarterly for each
                             commercial bank that is supervised by the Board of
                             Governors of the Federal Reserve System, FDIC, or
                             OCC. The performance and composition data in the
                             report are presented in the form of ratios,
                             percentages, and dollar amounts and are computed
                             mainly from call reports submitted by the bank.
                             The Uniform Bank Performance Report also
                             compares a bank’s performance and balance sheet
                             structure with similarly sized banks.

Uniform Standard of
Professional Appraisal
Practice                     The generally accepted standards for the
                             professional appraisal practice in North America.
                             The Uniform Standard of Professional Appraisal
                             Practice (USPAP) contains standards for all types
                             of appraisal services. Standards are included for
                             real estate, personal property, business and mass
                             appraisal. The Financial Institutions Reform,
                                                                          OIG-11-065

                                                                               Exhibit
                         Glossary of Terms Used by the Office of Inspector General in
                            Reports on Treasury-Regulated Financial Intuition Failures
                                                                             Page 29




                         Recovery and Enforcement Act of 1989 recognizes
                         USPAP as the general accepted appraisal standards
                         and requires USPAP compliance for appraisers in
                         federally related transactions. State Appraiser
                         Certification and Licensing Boards; federal, state,
                         and local agencies, appraisal services; and
                         appraisal trade associations require compliance
                         with USPAP.

Washington Supervision
Review Committee (OCC)   A committee that advises OCC senior deputy
                         comptrollers on bank supervision and enforcement
                         cases by providing recommendations on
                         supervisory strategies and enforcement actions.
                         The committee is chaired by the Deputy
                         Comptroller for Special Supervision.

Wholesale channel        An arrangement through which an intermediary,
                         such as a mortgage broker, offers loans directly to
                         the consumer.

Wholesale funding        Funding obtained by insured depository institutions
                         through such sources as federal funds, public
                         funds, Federal Home Loan Bank advances, the
                         Federal Reserve System’s primary credit program,
                         foreign deposits, and brokered deposits.
Appendix 1
Report Distribution




Department of the Treasury

       Office of Strategic Planning and Performance Management
       Office of Accounting and Internal Control

Office of the Comptroller of the Currency

       Liaison Officer

Office of the Thrift Supervision

       Liaison Officer

Office of Management and Budget

       OIG Budget Examiner
